TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Automated Collection System Gap Case
                     Test Initiative Was Not Effectively
                                  Conducted



                                         August 13, 2008

                              Reference Number: 2008-30-150




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 13, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Automated Collection System Gap Case Test
                               Initiative Was Not Effectively Conducted (Audit # 200830004)

 This report presents the results of our review of the Internal Revenue Service (IRS) Automated
 Collection System1 (ACS) Gap Case Test (Gap Test) Initiative. The overall objectives of this
 review were to determine whether the IRS effectively performed the ACS Gap Test and whether
 Gap Test results were used to implement or expand the Gap Test program. This audit was
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2008 Annual
 Audit Plan.

 Impact on the Taxpayer
 The Gap Test Initiative was intended to assess the impact of providing selected ACS personnel
 with the authority to perform additional research on balance-due accounts above their normal
 authority level rather than placing these accounts in the Queue,2 where a significant number
 might never be worked or their balances due never collected because of limited resources. At the
 conclusion of the Gap Test, management decided not to establish a new program. However, they
 did not provide sufficient oversight or collect sufficient information to accurately assess the
 effectiveness of the Gap Test program. Failure to collect taxes that are due results in unfair
 treatment of taxpayers who file accurate tax returns and pay their taxes.



 1
   A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
 delinquent taxpayers who have not complied with previous notices.
 2
   An automated holding file for unassigned inventory of delinquent cases for which the Collection function does not
 have enough resources to immediately assign for contact.
                   The Automated Collection System Gap Case Test Initiative Was
                                   Not Effectively Conducted




Synopsis
In October 2006, the Small Business/Self-Employed Division Campus Filing and Payment
Compliance function began a 6-month Gap Test. The Gap Test was intended to assess the
impact of providing selected ACS personnel with the authority to perform additional research on
balance-due accounts above their normal authority level that would otherwise have been sent to
the Queue for possible follow-up by revenue officers.3 In Fiscal Years 2001 through 2007, the
IRS removed from the Queue about 7.6 million Taxpayer Delinquent Accounts,4 with
balance-due amounts totaling almost $31.2 billion, because the cases were potentially less
productive than other available inventory.
At the conclusion of the Gap Test, management decided not to establish a separate program to
resolve specific balance-due accounts because they believed that ACS personnel had spent too
much time performing additional research. However, management did not collect sufficient
information from the Gap Test to accurately assess the effectiveness of the Gap Test. For
example, management did not capture the amount of funds collected during the Gap Test. We
reviewed a random sample of 100 completed Gap Test cases and identified approximately
$315,000 collected from taxpayers as a result of the additional research performed during the
Gap Test. In addition, tax examiners issued 52 liens and/or levy notices for these balance-due
accounts. Because IRS management did not collect this kind of information during the Gap Test,
they did not consider it when making their decision to not establish the Gap Test program.
In addition, management did not assess the Gap Test to determine whether they could make
changes to reduce the number of research steps or the time needed to complete them. For
example, they did not conduct any analysis to determine whether all of the research performed
by the tax examiners was actually needed or identify steps that could eliminate or reduce the time
needed to perform the research. Also, management did not ensure that tax examiners had the
correct skills levels to perform additional research to complete the Gap Test and did not ensure
that examiners had all the tools needed to complete necessary research.
Finally, management did not establish performance measures to evaluate the Gap Test results.
Without defining benchmarks, milestones, or specific performance goals, IRS management was
not adequately prepared to 1) provide sufficient oversight during the testing, 2) make appropriate
changes as the Gap Test progressed, or 3) evaluate the results of the Gap Test program. The
weaknesses in management oversight contributed to other problems, including unnecessarily
long delays in returning the unworked cases to the Collection function inventory and inadequate

3
  Employees in the Collection Field function who attempt to contact taxpayers and collect delinquent taxes or secure
unfiled returns on accounts that have not been resolved through notices sent by the IRS campuses or the ACS. The
campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  A balance-due account of a taxpayer. A separate Taxpayer Delinquent Account exists for each tax period.
                                                                                                                  2
                     The Automated Collection System Gap Case Test Initiative Was
                                     Not Effectively Conducted



documentation of the actions tax examiners took to resolve the cases. These conditions further
compromised the data on which management relied to make their decision.
The Gap Test was an attempt to reduce the number of balance-due accounts that are sent to the
Queue and was one of several initiatives that the Collection function considered to identify
potential cases for the campuses. One such initiative, developed by the Corporate Approach to
Collection Inventory (CACI) group, recommended the creation of a “Hybrid Pilot Program” that
uses ACS technology to test alternate inventory streams by using the combined collection skill
sets of ACS employees and revenue officers. The Hybrid Pilot Program was still in process
during our review.

Recommendations
We recommended that the Director, Campus Compliance Services, ensure that 1) benchmarks,
parameters, and other performance standards are established to effectively measure the success
or failure of cases meeting the Gap Test criteria that have been included in the CACI Hybrid
Pilot Program, 2) cases meeting the Gap Test criteria are measured in terms of benefits and
results, such as revenue collected, as part of the CACI Hybrid Pilot Program, and 3) assessments
of processing times are made for cases meeting Gap Test criteria that are included in the CACI
Hybrid Pilot Program. If improvements are identified, the Director should provide timely quality
review feedback so the improvements can be implemented during the testing.
Based on the results of Recommendations 1 through 3, the Director, Campus Compliance
Services, should determine whether the decision to not expand the Gap Test program was
warranted or whether additional testing is necessary. If more testing is needed, the Director
should establish proper inventory control procedures to reduce the number of cases not being
worked. If ACS Support function personnel are not granted additional authority or other options
do not arise from the Hybrid Pilot Program to work Gap Test criteria cases, the Director should
consider elevating this issue to the appropriate Council overseeing IRS Private Debt Collection5
activity to determine whether cases that meet Gap Test criteria can be sent to Private Debt
Collection program contractors.

Response
IRS management agreed with the findings and recommendations. They plan to track cases
meeting the Gap Test criteria as part of the CACI Hybrid Pilot Program. Management also
extended the Gap Test from 3 months to 6 months to gather more information, provide additional
time for employees to learn the new processes, and allow the cases to progress to conclusion.
Further, management agreed to 1) measure Gap Test cases in terms of benefits and results to the

5
    An IRS program permitting private collection agencies to help collect Federal tax debts.
                                                                                                 3
                The Automated Collection System Gap Case Test Initiative Was
                                Not Effectively Conducted



extent that these cases are included in the CACI Hybrid Pilot Program, and 2) capture the
assessment of processing time related to the Hybrid initiative. Because the more extensive CACI
Hybrid initiative already includes key objectives that were part of the Gap Test, further testing of
Gap Test cases is not planned. In addition, management agreed to consider elevating unresolved
inventory for Hybrid initiative cases meeting Gap Test criteria to the Private Debt Collection
Program office as another source of work for its consideration. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                  4
                      The Automated Collection System Gap Case Test Initiative Was
                                      Not Effectively Conducted




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Did Not Fully Plan the Gap Test.............................................Page 4
                    Recommendation 1:..........................................................Page 5

          Management Did Not Provide Sufficient Oversight While the Gap Test
          Was Being Conducted...................................................................................Page 5
                    Recommendation 2:..........................................................Page 7

                    Recommendation 3: .................................................................... Page 8

          Management Did Not Have Sufficient Information to Make
          Decisions ......................................................................................................Page 8
                    Recommendation 4:..........................................................Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
       The Automated Collection System Gap Case Test Initiative Was
                       Not Effectively Conducted




                      Abbreviations

ACS             Automated Collection System
CACI            Corporate Approach to Collection Inventory
IRS             Internal Revenue Service
                   The Automated Collection System Gap Case Test Initiative Was
                                   Not Effectively Conducted




                                            Background

The Automated Collection System1 (ACS) Gap Case Test (Gap Test) was initiated by the Small
Business/Self-Employed Division Campus Filing and Payment Compliance function to
determine the impact of having ACS Support function staff perform additional research steps to
locate taxpayers and resolve balance-due accounts above their normal authority level. These
accounts had already gone through the normal notice routine and would have been sent to the
Queue2 for possible follow-up by revenue officers.3 According to Collection Activity Reports,
the ACS Support function sent approximately 800,000 accounts of varying balance-due amounts
(totaling $7.8 billion) to the Queue during Fiscal Year 2006. Although numerous factors
determine whether a case is assigned from the Queue, these cases are unlikely to be selected and
worked by revenue officers.
The Small Business/Self-Employed Division ACS Support function in Cincinnati, Ohio, was
chosen to work the cases for the Gap Test. The Gap Test team consisted of six tax examiners,
a lead examiner, and a project coordinator and was conducted from October 2006 through
March 2007. It required an Internal Revenue Manual deviation that allowed the Cincinnati ACS
Support function to resolve balance-due accounts above its normal authority level and to close
cases as Currently Not Collectible-Unable to Locate or Currently Not Collectible-Unable to
Contact after performing additional research steps. The research to locate each Gap Test
taxpayer consisted of searching the Internal Revenue Service (IRS) computer systems for
taxpayer information, performing telephone checks, sending written communications to the
taxpayer’s last known address, and conducting additional electronic research such as searches for
credit report and real property data.
The Campus Filing and Payment Compliance function 1) developed an action plan and
procedures for working the cases, 2) ensured that original Gap Test team members received
training, and 3) developed a checksheet on which the tax examiners would record specific
actions taken. Periodically, the Gap Test project coordinator tallied the information from the
checksheets and forwarded the totals to the National Headquarters in New Carrollton, Maryland
(Program Office). At the end of the Gap Test, the recorded information was to be analyzed by


1
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
2
  An automated holding file for unassigned inventory of delinquent cases for which the Collection function does not
have enough resources to immediately assign for contact.
3
  Employees in the Collection Field function who attempt to contact taxpayers and collect delinquent taxes or secure
unfiled returns on accounts that have not been resolved through notices sent by the IRS campuses or the ACS. The
campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 1
                The Automated Collection System Gap Case Test Initiative Was
                                Not Effectively Conducted



Collection Policy and ACS Support Operations functions to determine whether a separate
program should be established.
The Gap Test is one of several initiatives that the Collection function considered to identify
potential cases for the campuses. In 2006, the Collection Governance Council tasked the
Corporate Approach to Collection Inventory (CACI) group with reviewing their case assignment
practices from an enterprise-wide perspective. The CACI team included members from
Headquarters offices, campuses, and field offices. The team used its combined experiences and
expertise to develop multiple hypotheses. During early 2007, the CACI team translated these
hypotheses into detailed recommendations and presented them to the Collection Governance
Council for consideration and approval. Several of the recommendations dealt with creating a
Hybrid Pilot Program that uses ACS technology to test alternate inventory streams by using
combined collection skill sets of ACS employees and revenue officers to provide better corporate
coverage and to help reduce the tax gap.
The volume of overall test cases for the Hybrid Pilot Program will be relatively small. The case
assignment and routing of the inventories will use ACS or Entity systems to minimize manual
case handling. The testing period is planned to run for several months to ensure that valid and
complete data are gathered. Once the hybrid testing is completed, an assessment of the results
will be made, and the routing of cases might change and could be programmed into the Inventory
Delivery System for future case routing. All future changes, including measures and details, will
be communicated through multiple channels.
This review was performed at the ACS Support function in Cincinnati and the Program Office of
the Campus Filing and Payment Compliance function in New Carrollton during the period
August 2007 through February 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                   The Automated Collection System Gap Case Test Initiative Was
                                   Not Effectively Conducted




                                       Results of Review

The Gap Test was an attempt to reduce the number of balance-due accounts that are sent to the
Queue for possible follow-up by revenue officers. Although some of the cases in the Queue
might be assigned to be worked, a significant number will never be worked and their balances
due never collected. In Fiscal Years 2001 through 2007, the IRS removed from the Queue about
7.6 million Taxpayer Delinquent Accounts,4 with balance-due amounts totaling almost
$31.2 billion. These cases were removed from Collection Field function5 inventory because they
were potentially less productive than other available inventory. The Collection Field function is
unable to work all of the existing accounts in the Queue with current staffing, and the number of
new Taxpayer Delinquent Accounts is outpacing closures. The number of taxpayers with unpaid
accounts in the Queue and the amounts owed on these accounts increased to 10-year highs
during Fiscal Year 2007.
At the conclusion of the Gap Test, management decided not to establish a new program that
would expand the number of cases worked by the ACS Support function staff. However, our
review showed that management did not fully plan, implement, or have sufficient information to
assess the results of the Gap Test. Specifically, management did not:
    •    Establish performance measures or goals to measure success.
    •    Ensure that personnel assigned to the Gap Test had the appropriate skills and training.
    •    Provide assigned personnel timely access to credit check services needed to research
         taxpayers’ accounts.
    •    Collect and consider information on the benefits and costs of Gap Test cases.
    •    Ensure that assigned personnel were properly documenting the Gap Test case files.
    •    Conduct interim quality reviews to determine whether improvements could be made to
         the processes used during the Gap Test.
    •    Return the Gap Test cases that were not worked during the Gap Test to the Queue in a
         timely manner.
As a result, management’s decision to not expand the authority and research conducted by the
ACS Support function might have been based on inaccurate and incomplete information. When

4
 A balance-due account of a taxpayer. A separate Taxpayer Delinquent Account exists for each tax period.
5
 The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. An Area Office is a geographic organizational level used by IRS
business units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
                                                                                                             Page 3
                The Automated Collection System Gap Case Test Initiative Was
                                Not Effectively Conducted



the IRS does not sufficiently evaluate new alternatives for collecting unpaid taxes, it might lose
an opportunity to increase revenues.

Management Did Not Fully Plan the Gap Test
Proper project planning is important to ensure that a project meets its goals and that management
obtains complete and reliable information to make decisions. When planning a project,
management should identify the project’s objectives and goals and ensure that sufficient
resources are available.
However, when planning for the Gap Test, management did not create benchmarks or goals by
which to measure the Gap Test’s success, failure, or effectiveness. By not defining the
benchmarks, milestones, or specific performance goals, IRS management was not adequately
prepared to 1) provide sufficient oversight during the testing, 2) make appropriate changes as the
Gap Test progressed, or 3) evaluate the results of the Gap Test program. Without these
measurements, management did not have objective criteria with which to assess whether the
resources used in conducting the Gap Test outweighed any benefits that might have been
received. For example, management did not create specific goals for reducing time expended,
collecting revenues, or closing cases.
As part of their research steps, the tax examiners needed to evaluate each Gap Test taxpayer’s
financial condition. To do so, the examiners needed access to credit check services similar to
those used in private industry. This requirement was known before the Gap Test started, and
access to the services should have been provided to the tax examiners to ensure that they had all
necessary tools. However, management did not secure access to the credit check services until
February 2007, 1 month before the end of the Gap Test period. This delay caused a large
percentage of cases to not be completed within the 6-month Gap Test period.
In addition, management did not adequately plan for potential employee reassignments or ensure
that employees had the tools and skills necessary to do their work. Initially, the tax examiners
were trained to perform research and prepare documentation. As the Gap Test progressed, some
tax examiners were reassigned to work on other priorities, while other examiners were assigned
to work on the CACI Hybrid Pilot Program as the Gap Test concluded. The CACI team
identified a need for separate treatment of business and individual taxpayers who voluntarily
filed their returns. Using less costly ACS resources would allow these cases to receive priority
focus, and the unresolved cases would be more thoroughly developed to identify the most
appropriate resolution. In addition, with authority levels in concurrence with those in the
Collection Field function, more accounts would be resolved that would otherwise remain in the
Queue.
In addition, because of training inadequacies, some Gap Test tax examiners spent more time
performing research on the Gap Test cases than others, and some examiners performed too much
research. For example, some examiners were not adequately trained to use specific research

                                                                                             Page 4
                      The Automated Collection System Gap Case Test Initiative Was
                                      Not Effectively Conducted



tools, such as Accurint.6 It took tax examiners an average of 3.1 hours (ranging from
1 hour to 4 hours) to perform the research. However, management never performed an analysis
to determine why there was such a variance in the amount of time required to work a case.

Recommendation
Recommendation 1: The Director, Campus Compliance Services, should ensure that
benchmarks, parameters, and other performance standards are established to effectively measure
the success or failure of cases meeting the Gap Test criteria that have been included in the CACI
Hybrid Pilot Program.
           Management’s Response: IRS management agreed with the recommendation. They
           plan to track cases meeting Gap Test criteria as part of their tracking of the CACI Hybrid
           project. The IRS encountered and documented unforeseen challenges during the Gap
           Test, including systems access issues, the extended learning curve for additional
           processing, shifting resources, and case complexity. Management recognized these
           issues and extended the Gap Test from 3 months to 6 months to gather more information,
           provide additional time for employees to learn the new processes, and allow the cases to
           progress to conclusion.

Management Did Not Provide Sufficient Oversight While the Gap Test
Was Being Conducted
The Internal Revenue Manual requires Small Business/Self-Employed Division management to
provide the necessary oversight, guidelines, and analysis of programs to identify trends for
collection processes. Our review showed that the Program Office did not provide sufficient
guidance, oversight, and feedback to local management during the Gap Test to ensure that it was
progressing efficiently and collecting useful information. Several deficiencies that occurred
during the Gap Test could have been corrected if management had provided sufficient oversight
and quality reviews. The Program Office reported that local management was very involved at
the start of the Gap Test but that their involvement decreased as the Gap Test progressed. The
Program Office was unaware of the impact of the decrease in local management’s involvement
until the conclusion of the Gap Test because it was not regularly communicating with local
management on the progress and status of the Gap Test.

Collecting data
For the Gap Test to be effective, management should have ensured that the tax examiners
collected information they could use to assess the performance of the Gap Test. The tax
examiners captured information related to the process of working the cases but did not collect

6
    Accurint is the IRS’ asset locator tool for front-line employees.
                                                                                              Page 5
                  The Automated Collection System Gap Case Test Initiative Was
                                  Not Effectively Conducted



sufficient information about the benefits of the Gap Test program. For example, no information
was obtained on revenues received during the Gap Test. We reviewed a random sample of
100 completed Gap Test cases and identified approximately $315,000 collected from taxpayers
as a result of the additional research performed during the Gap Test. In addition, tax examiners
issued 52 liens and/or levy notices for these 100 cases, which will protect the Federal
Government’s interest. Because this information was not collected during the Gap Test, the IRS
did not consider it when it decided to not expand the authority for cases worked by ACS Support
function staff.

Documenting case files
The tax examiners were authorized to close a case as Currently Not Collectible if they received
no response after performing additional research to locate the taxpayer. This research included
performing searches to locate telephone numbers of the taxpayer’s neighbors, sending written
communications to the taxpayer’s last known address, and conducting additional research to find
real property and credit report information. The tax examiners were to place calls to new
telephone numbers, send letters to new addresses, and initiate liens and/or issue levy notices
when appropriate. In addition, they were to document the case checksheet and the Desktop
Integration system7 with the results of their research, any actions taken, and how they were
disposing of the case.
Tax examiners did not properly document research performed or take appropriate actions to
resolve the balance-due accounts. In our random sample of 100 completed Gap Test cases,
22 were not adequately documented, and 7 had an incorrect Currently Not Collectible closing
code. We also noted that the Gap Test project coordinator corrected another 16 cases that had
been closed with incorrect closing codes. Although the Gap Test tax examiners received training
prior to conducting the Gap Test, differences between the closing codes for Currently Not
Collectible-Unable to Locate and Currently Not Collectible-Unable to Contact were unclear to
the examiners.
The tax examiners were required to record their actions in the Desktop Integration system.
However, they did not always input to this system the telephone numbers of the taxpayers and/or
their neighbors and relatives or the mailing addresses to which correspondence had been sent.
Because this information was not always documented, we could not determine whether the tax
examiners sent correspondence to the most current addresses or used the most recent telephone
numbers. If actions are not properly documented, work could be duplicated if the cases are
reactivated, and processing issues and trends might not be readily identified.




7
 The Desktop Integration system provides a common interface that allows users of multiple IRS systems to view
history and comments from other systems.
                                                                                                        Page 6
                The Automated Collection System Gap Case Test Initiative Was
                                Not Effectively Conducted



Conducting interim quality reviews
Although the Program Office had some communication with the Gap Test project coordinator
throughout the Gap Test, it did not perform a quality review of the Gap Test until May 2007
(1 month after the Gap Test had ended), and it did not provide feedback to the project
coordinator. Further, it selected 25 cases to review but completed reviews of only 12. Because
the reviews were not conducted during the Gap Test, the Gap Test team did not have an
opportunity to make changes based on the results. For example, the Gap Test team could have
tried to find ways to reduce the number of research steps, or the time needed to complete them, if
the quality reviews had been performed during the Gap Test.

Returning cases to the Queue
For the Gap Test, the ACS call sites were instructed to place cases meeting Gap Test criteria into
a special inventory category. Normally, these cases would have been sent to the Queue for
follow-up by revenue officers. When the cases were placed in the Gap Test inventory, they
became unavailable to revenue officers. Only Gap Test personnel could work these cases. The
tax examiners accessed the Gap Test inventory by using the “next case” processing tool in the
ACS to obtain the next case to work.
Between October 2006 and March 2007, the ACS call sites placed 2,743 cases in the Gap Test
inventory. The Gap Test project coordinator rejected 106 of these cases because they did not
meet the criteria, which left 2,637 cases available for the Gap Test team. However, tax
examiners worked only 607 cases (23 percent).
ACS call sites continued to place cases in the Gap Test inventory, even though there were a
sufficient number of cases for the Gap Test already in the inventory. These additional cases
could not be worked. Management did not provide clear procedures on when to discontinue
placing cases in the Gap Test inventory.
In addition, management did not establish procedures for placing the 2,030 unworked cases back
in the normal Collection function workflow. As a result, these 2,030 Gap Test cases remained in
the Gap Test inventory until November 2007, when the Gap Test project coordinator returned
them to the normal Collection function workflow. Thus, these cases were held for more than
7 months after the Gap Test had been completed, without the possibility of being worked.

Recommendations
The Director, Campus Compliance Services, should:
Recommendation 2: Ensure that cases meeting the Gap Test criteria are measured in terms of
benefits and results, such as revenue collected, as part of the CACI Hybrid Pilot Program.
       Management’s Response: IRS management agreed with the recommendation. They
       plan to measure Gap Test cases in terms of benefits and results to the extent that these
                                                                                           Page 7
               The Automated Collection System Gap Case Test Initiative Was
                               Not Effectively Conducted



       cases are included in the CACI Hybrid Pilot Program. The Hybrid initiative will not
       specifically focus on the Gap Test cases. However, because they are included, IRS
       management agreed to measure the cases meeting Gap Test criteria in the same way they
       measure the benefits and results captured as part of the entire CACI Hybrid initiative.
Recommendation 3: Ensure that assessments of processing times are made for cases meeting
Gap Test criteria that are included in the CACI Hybrid Pilot Program. If improvements are
identified, the Director should provide timely quality review feedback so the improvements can
be implemented during the testing.
       Management’s Response: IRS management agreed with the recommendation. They
       plan to capture the assessment of processing time related to the CACI Hybrid initiative.

Management Did Not Have Sufficient Information to Make Decisions
At the conclusion of the Gap Test, management decided that the research was too
time-consuming and, therefore, did not expand the Gap Test program. This decision was based
primarily on the average of 3.1 hours per case expended by the examiners to perform the
additional research on the Gap Test cases. Management must have complete and reliable
information to make informed decisions. However, management did not:
   •   Perform any analysis to determine whether all of the additional research was necessary or
       whether some research steps could be eliminated.
   •   Consider all of the benefits obtained during the Gap Test, such as increased revenues.
   •   Ensure that the Gap Test team had sufficient resources, adequate training, and necessary
       access to information to properly conduct the Gap Test.
These conditions further compromised the data on which management relied to make their
decision. Although management did not have sufficient information available, they decided not
to establish a program that would expand the number of cases worked by ACS Support function
personnel. As a result, management might have missed an opportunity to implement a
cost-effective process to reduce the number of cases in the Queue and increase revenues.

Recommendation
Recommendation 4: Based on the results of Recommendations 1 through 3, the Director,
Campus Compliance Services, should determine whether the decision to not expand the Gap Test
program was warranted or whether additional testing is necessary. If more testing is needed, the
Director should establish proper inventory control procedures to reduce the number of cases not
being worked. If ACS Support function personnel are not granted additional authority or other
options do not arise from the CACI Hybrid Pilot Program to work Gap Test criteria cases, the
Director should consider elevating this issue to the appropriate Council overseeing IRS Private

                                                                                          Page 8
                     The Automated Collection System Gap Case Test Initiative Was
                                     Not Effectively Conducted



Debt Collection8 activity to determine whether cases that meet Gap Test criteria can be sent to
Private Debt Collection program contractors.
           Management’s Response: IRS management agreed with the recommendation.
           Because the more extensive CACI Hybrid initiative already includes key objectives that
           were part of the Gap Test, further testing of Gap Test cases is not planned. Management
           agreed to consider elevating unresolved inventory for Hybrid initiative cases meeting
           Gap Test criteria to the Private Debt Collection program office as another source of work
           for its consideration.




8
    An IRS program permitting private collection agencies to help collect Federal tax debts.




                                                                                               Page 9
                  The Automated Collection System Gap Case Test Initiative Was
                                  Not Effectively Conducted



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the IRS effectively performed
the ACS1 Gap Case Test (Gap Test) and whether Gap Test results were used to implement or
expand the Gap Test program. To accomplish these objectives, we:
I.      Interviewed the project manager and other appropriate officials to determine the criteria
        and procedures for identifying, selecting, and reviewing cases for the Gap Test.
II.     Determined whether controls were effective to ensure that the Gap Test team properly
        performed additional research and took appropriate actions to resolve or close the cases.
        A. Selected a random sample of 100 cases from the 444 completed Gap Test cases2 to
           determine whether the appropriate research was performed and documented by the
           ACS Support function Gap Test team. We used a random sample to ensure that each
           item in the population had an equal opportunity to be selected.
             1. Reviewed supporting documentation to determine whether the additional research
                was performed.
             2. Reviewed the Gap Test case files to determine whether the actions taken to
                resolve the cases were properly documented.
             3. Researched available resources (e.g., the Integrated Data Retrieval System,3 ACS,
                and Desktop Integration system4) to determine whether the additional research
                steps were correctly performed and accurately documented in the Desktop
                Integration system comments.
        B. Determined whether reviews were performed to ensure that Gap Test cases were
           properly worked and that Gap Test results were accurately captured and reported to
           the Program Office.




1
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
2
  Of the 607 cases worked during the Test period, 444 cases were completed.
3
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
4
  The Desktop Integration system provides a common interface that allows users of multiple IRS systems to view
history and comments from other systems.
                                                                                                         Page 10
                   The Automated Collection System Gap Case Test Initiative Was
                                   Not Effectively Conducted



III.    Determined whether the National Headquarters in New Carrollton, Maryland (Program
        Office) provided adequate oversight to ensure that the Gap Test was properly conducted.
        A. Determined whether reviews of the Gap Test results were performed and whether
           feedback was provided to the Gap Test team.
        B. Reviewed the final Gap Test data to determine whether the Gap Test results were
           accurately captured and included a breakdown showing the resolution of the Gap Test
           cases (e.g., Currently Not Collectible-Unable to Locate or Currently Not Collectible-
           Unable to Contact, transferred to a revenue officer,5 sent to the Queue,6 or fully paid).
           We also determined whether the results were consistently calculated. For example,
           we determined whether some actions performed in April, which was after the Gap
           Test period, still counted toward the final Gap Test results (e.g., if the case was
           ultimately fully paid), while other actions performed after the Gap Test period were
           not counted (e.g., if the case was closed as Currently Not Collectible).
IV.     Evaluated the IRS’ plans for expanding or implementing the Gap Test procedures and the
        Gap Test’s impact on the ACS Support function workload.
        A. Determined whether any studies were performed or are planned to evaluate the
           impact that performing additional research had on the ACS Support function staff.
        B. Determined whether there are plans to expand the Gap Test to include other types of
           cases such as Business Master File7 or different dollar values.
        C. Determined whether the IRS captured the time charged to the Gap Test.
        D. Determined whether the IRS established criteria to measure the Gap Test’s success.




5
  Employees in the Collection Field function who attempt to contact taxpayers and collect delinquent taxes or secure
unfiled returns on accounts that have not been resolved through notices sent by the IRS campuses or the ACS. The
campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  An automated holding file for unassigned inventory of delinquent cases for which the Collection function does not
have enough resources to immediately assign for contact.
7
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                          Page 11
               The Automated Collection System Gap Case Test Initiative Was
                               Not Effectively Conducted



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl L. Aley, Director
Edward Gorman, Audit Manager
Denise M. Gladson, Lead Auditor
Janis Zuika, Senior Auditor
Stephen A. Elix, Auditor
Marcus D. Sloan, Auditor




                                                                                      Page 12
              The Automated Collection System Gap Case Test Initiative Was
                              Not Effectively Conducted



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 13
                  The Automated Collection System Gap Case Test Initiative Was
                                  Not Effectively Conducted



                                                                                               Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $315,000 collected from taxpayers as a result of
    performing the additional research (see page 5).

Methodology Used to Measure the Reported Benefit:
From a random sample of 100 ACS1 Gap Case Test (Gap Test) cases, we identified 28 cases for
which the Gap Test program collected $314,579.11 from taxpayers as a result of the additional
research performed during the Gap Test. However, the funds collected were not considered
when assessing the results of the Gap Test.




1
 A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
                                                                                                         Page 14
   The Automated Collection System Gap Case Test Initiative Was
                   Not Effectively Conducted



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 15
The Automated Collection System Gap Case Test Initiative Was
                Not Effectively Conducted




                                                       Page 16
The Automated Collection System Gap Case Test Initiative Was
                Not Effectively Conducted




                                                       Page 17
The Automated Collection System Gap Case Test Initiative Was
                Not Effectively Conducted




                                                       Page 18
